Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 2/15/2021 deponent caused to be served 1 copy(s) of the within
Motion for Leave to Proceed in Forma Pauperis
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

A.U.S.A. Andrey Spektor
A.U.S.A. Kevin Trowel
SETH D. DUCHARME
Acting United States Attorney
United States Attorney
Eastern District of New York
271 Cadman Plaza East
Brooklyn, NY 11201

Office of the Solicitor
General
Department of Justice,
950 Pennsylvania Avenue, N.W.,
Room 5616,
Washington D.C. 20530-0001

Sworn to me this

Case Name: Shameke Walker v. USA

Monday, February 15, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Docket/Case No:
Index:

